No. 20-1642
In the

Supreme Court of the United States

BRIAN DOTY,
Petitioner,
v.
TAPPAN ZEE CONSTRUCTION, LLC.,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

REPLY BRIEF

Paul T. Hofmann
Counsel of Record
Hofmann & Schweitzer
212 West 35st Street, 12th Floor
New York, N.Y. 10001
(212) 465-8840
paulhofmann@hofmannlawfirm.com
Counsel for Petitioner

305892

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
DISCUSSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Chandris, Inc. v. Latsis,
515 U.S. 347 (1995)  . . . . . . . . . . . . . . . . . . . . . . . passim
Harbor Tug and Barge Co. v. Papai,
520 U.S. 548 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Johnson v. John F. Beasley Constr. Co.,
742 F.2d 1054 (CA7 1984) . . . . . . . . . . . . . . . . . . . . . . . 2
McDermott Int’l, Inc. v. Wilander,
498 U.S. 337 (1991)  . . . . . . . . . . . . . . . . . . . . . . . passim
O’Donnell v. Great Lakes Dredge & Dock Co.,
318 U.S. 36 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Offshore Co. v. Robison,
266 F.2d 769 (CA5 1959) . . . . . . . . . . . . . . . . . . . . . 9, 10
Sanchez v. Smart Fabricators of Texas, L.L.C.,
997 F.3d 564 (5th Cir. 2021) . . . . . . . . . . . . . . . . . . . . 10
Southwest Marine, Inc. v. Gizoni,
502 U.S. 81 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . passim
Uzdavines v. Weeks Marine, Inc.,
418 F.3d 138 (2d Cir. 2005) . . . . . . . . . . . . . . . . . . . . . 11

iii
Cited Authorities
Page
Statutes
33 U.S.C. § 902(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
46 U.S.C. § 30104  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

1
The following constitutes Petitioner’s reply to
the Respondent’s brief in opposition to the Petition.
Highlighted is the Respondent’s failure to rebut the
arguments that the Second Circuit ignored key principles
adopted by the Supreme Court in how to assess seaman
status, and Respondent’s ignoring of pertinent arguments
made by Petitioner in support of his Petition for a granting
of certiorari here.
DISCUSSION
The Supreme Court said that there was no shortcut to determining seaman status as opposed to those
solely covered by the LHWCA. The Second Circuit, at
the urging of Respondent, did just that, took the easy
way out to dispose of a righteously plead case for Jones
Act seaman status, rather than submitting the issue for
a jury to decide. As Chandris, Inc. v Latsis, 515 US 347
(1995) points out:
drawing the distinction between those maritime
workers who should qualify as seamen and those
who should not has proved to be a difficult task
and the source of much litigation—particularly
because “the myriad circumstances in which
men go upon the water confront courts not
with discrete classes of maritime employees,
but rather with a spectrum ranging from
the blue-water seaman to the land-based
longshoreman.” The federal courts have
struggled over the years to articulate generally
applicable criteria to distinguish among the
many varieties of maritime workers, often
developing detailed multipronged tests for

2
seaman status. Since the 1950’s, this Court
largely has left definition of the Jones Act’s
scope to the lower courts. Unfortunately, as a
result, “[t]he perils of the sea, which mariners
suffer and shipowners insure against, have met
their match in the perils of judicial review.”
Gilmore & Black, supra, § 6–1, at 272. Or, as
one court paraphrased Diderot in reference to
this body of law: “ ‘We have made a labyrinth
and got lost in it. We must find our way out.’
” Johnson v. John F. Beasley Constr. Co., 742
F.2d 1054, 1060 (CA7 1984), cert. denied, 469
U.S. 1211 (1985)...
Chandris, Inc. v Latsis, 515 US 347 at 356.
Chandris, applying principles from prior precedent,
and in particular McDermott Int’l, Inc. v. Wilander, 498
U.S. 337 (1991) and Southwest Marine, Inc. v. Gizoni, 502
U.S. 81 (1991) provided the map to solving the labyrinth,
stating guidelines that a jury would follow to reach the
solution. Unfortunately, below, the Second Circuit failed
to follow those rules, which is why certiorari should be
granted to correct an injustice to the Petitioner.
1. Defendant fails to acknowledge that generally the
Supreme Court has recognized that maintenance workers,
similar to Mr. Doty, who work on and from vessels in
navigation can and should be classified as seamen, as the
Court in Chandris recognized when it acknowledged the
correctness of the Wilander and Gizoni decisions. For
instance, Chandris states:

3
In Wilander, decided in 1991, the Court
attempted for the first time in 33 years to clarify
the definition of a “seaman” under the Jones
Act. Jon Wilander was injured while assigned
as a foreman supervising the sandblasting
and painting of various fixtures and piping on
oil drilling platforms in the Persian Gulf. His
employer claimed that he could not qualify as a
seaman because he did not aid in the navigation
function of the vessels on which he served.
Emphasizing that the question presented
was narrow, we considered whether the term
“seaman” is limited to only those maritime
workers who aid in a vessel’s navigation.
After surveying the history of an “aid in
navigation” requirement under both the Jones
Act and general maritime law, we concluded
that “all those with that ‘peculiar relationship
to the vessel’ are covered under the Jones Act,
regardless of the particular job they perform”
and that “the better rule is to define ‘master
or member of a crew’ under the LHWCA, and
therefore ‘seaman’ under the Jones Act, solely
in terms of the employee’s connection to a vessel
in navigation,” Thus, we held that, although “[i]t
is not necessary that a seaman aid in navigation
or contribute to the transportation of the vessel,
... a seaman must be doing the ship’s work.”
Wilander (498 U.S.) at 355. We explained that
“[t]he key to seaman status is employmentrelated connection to a vessel in navigation,”
and that, although “[w]e are not called upon
here to define this connection in all details, ...

4
we believe the requirement that an employee’s
duties must ‘contribut[e] to the function of the
vessel or to the accomplishment of its mission’
captures well an important requirement of
seaman status.” Ibid. (Some citations omitted).
Chandris, Inc. v Latsis, 515 US 347, 357.
In denying Mr. Doty the right to a jury determination
of his status, the Second Circuit did not cite Wilander,
and here Respondent ignores the import of that case’s
holding which undercuts the argument that because Mr.
Doty’s primary work was to service the appurtenances on
the many vessels in the fleet doing the maritime work of
building the Tappan Zee Bridge, he could not be a seaman.
2. The Supreme Court has rejected what the Second
Circuit accepted at the urging of Tappan Zee here, that
there be a “voyage” requirement for a person to be
considered a seaman, by making it clear that a voyage
might be a factor, however, the primary analysis must
about the worker’s connection to a vessel in terms of
status, a connection substantial in duration and nature. As
the court in Chandris stated, “[a] brief survey of the Jones
Act’s tortured history makes clear that we must reject the
initial appeal of such a “voyage” test and undertake the
more difficult task of developing a status-based standard
that, although it determines Jones Act coverage without
regard to the precise activity in which the worker is
engaged at the time of the injury, nevertheless best
furthers the Jones Act’s remedial goals.” 515 US at 358
The court reiterated its prior holdings that, “‘[t]he
right of recovery in the Jones Act is given to the seaman

5
as such, and, as in the case of maintenance and cure, the
admiralty jurisdiction over the suit depends not on the
place where the injury is inflicted but on the nature of the
service and its relationship to the operation of the vessel
plying in navigable waters.’” (Citing O’Donnell v. Great
Lakes Dredge & Dock Co., 318 U.S. 36, 42–43). Chandris,
515 US at 360/
3. Respondent fails to acknowledge that the Supreme
Court directed that a jury is the entity that must decide
the determination of seaman status. That seaman status
presents a jury question, not one for the court to decide
except in the most clear circumstances, is undeniable, As
the court stated in Chandris, referring to McDermott
Int’l, Inc. v. Wilander, 498 U.S. 337 (1991):
Under the Jones Act, “[i]f reasonable persons,
applying the proper legal standard, could differ
as to whether the employee was a ‘member of a
crew,’ it is a question for the jury.”1 Wilander,
498 U.S. at 356. On the facts of this case, given
that essential points are in dispute, reasonable
factfinders could disagree as to whether Latsis
was a seaman. Because the question whether
the Galileo remained “in navigation” while in
drydock should have been submitted to the
jury, and because the decision on that issue
1. The Jones Act guarantees the right to a jury trial. 46 USC
§ 30104. “A seaman injured in the course of employment or, if the
seaman dies from the injury, the personal representative of the
seaman may elect to bring a civil action at law, with the right of trial
by jury, against the employer. Laws of the United States regulating
recovery for personal injury to, or death of, a railway employee apply
to an action under this section.”

6
might affect the outcome of the ultimate seaman
status inquiry, we affirm the judgment of the
Court of Appeals remanding the case to the
District Court for a new trial.
On remand, the District Court should charge
the jury in a manner consistent with our holding
that the “employment-related connection to
a vessel in navigation” necessary to qualify
as a seaman under the Jones Act, id., at 355,
comprises two basic elements: The worker’s
duties must contribute to the function of the
vessel or to the accomplishment of its mission,
and the worker must have a connection to a
vessel in navigation (or an identifiable group
of vessels) that is substantial in terms of both
its duration and its nature. As to the latter
point, the court should emphasize that the
Jones Act was intended to protect sea-based
maritime workers, who owe their allegiance to
a vessel, and not land-based employees, who do
not. By instructing juries in Jones Act cases
accordingly, courts can give proper effect to
the remedial scheme Congress has created for
injured maritime workers.
Chandris, Inc. 515 US at 376-77.
4. Like the Second Circuit, Respondent again ignores
that the facts in Gizoni are essentially identical to the facts
here, and that the Supreme Court expressly stated it was
a jury question as to whether Mr. Gizoni could be found
to be a seaman. Chandris specifically acknowledged the
correctness of the Gizoni decision:

7
To say that our cases have recognized a
distinction between land-based and sea-based
maritime workers that precludes application
of a voyage test for seaman status, however, is
not to say that a maritime employee must work
only on board a vessel to qualify as a seaman
under the Jones Act. In Southwest Marine, Inc.
v. Gizoni, 502 U.S. 81 (1991), decided only a few
months after Wilander, we concluded that a
worker’s status as a ship repairman, one of the
enumerated occupations encompassed within
the term “employee” under the LHWCA, 33
U.S.C. § 902(3), did not necessarily restrict
the worker to a remedy under that statute. We
explained that, “[w]hile in some cases a ship
repairman may lack the requisite connection
to a vessel in navigation to qualify for seaman
status, ... not all ship repairmen lack the
requisite connection as a matter of law. This is
so because ‘[i]t is not the employee’s particular
job that is determinative, but the employee’s
connection to a vessel.’ ” Gizoni, supra, at 89
(quoting Wilander, 498 U.S., at 354) (footnote
omitted). Thus, we concluded, the Jones Act
remedy may be available to maritime workers
who are employed by a shipyard and who spend
a portion of their time working on shore but
spend the rest of their time at sea.
Chandris, Inc., 515 US at 363-64.
The Second Circuit, as pointed out in Petitioner’s
primary brief, cited neither Wilander nor Gizoni
and Respondent here, in its opposition to the petition,

8
ignores the analyses and holdings in both because they
do not fit Respondent’s false narrative about Mr. Doty’s
employment.
5. Respondent ignores the undisputed assertion that
on a daily basis, around a half dozen times a day, Mr. Doty
transported equipment, tools and materials on necessary
trips across various parts of the three mile wide river.
Again, as the court has noted, he does not have to aid in
the navigation of the vessel, but must be doing the work
of that vessel or fleet, here he was doing the work of
transporting equipment, tools and materials, just as did
the repair person in Gizoni. Mr. Doty thus clearly aided
in the function of the vessels, and contributed to their
mission, and was seagoing, facts conveniently ignored by
Respondent. See, Harbor Tug and Barge Co. v. Papai,
520 U.S. 548, 560 (1997). 2
2. Papai was assigned by a union to paint the exterior of a
tugboat. He had worked for that employer about 12 times over the
prior 2-1/2 months. On the first day of this next assignment, he was
injured. The decision to deny Mr. Papai seaman status turned on two
points. First, he could not show that there was common ownership
or control of the vessels he worked on during the relevant time
period analyzed, thus failing the Chandris requirement of work on
a vessel or group of vessels that was substantial in duration.“Since
the substantial connection standard is often ... the determinative
element of the seaman inquiry, it must be given workable and
practical confines. When the inquiry further turns on whether the
employee has a substantial connection to an identifiable group of
vessels, common ownership or control is essential for this purpose.”
Id at 557. Common ownership and control is not an issue in the within
matter. The second point Papai failed was that his work was sporadic
and transitory, and did not involve the boat actively being used on
the water. He only worked a few days for this employer in the past
2-1/2 months. The court did not say that his maintenance work on

9
6. Respondent ignores the argument that exposure to
the sea, and working at sea, does not mean that the vessel
has to be moving across water to provide seaman status.
Respondent ignores the Supreme Court’s recognition that
even workers performing labor on vessels sunk to the
bottom of the Gulf of Mexico, and which obviously were
not sailing from port to port, can be classified as seamen
if exposed to the hazards of the navigable waters and are
performing ship’s work. Chandris, like Wilander before
it, recognized the foundational authority of Offshore Co.
v. Robison, 266 F.2d 769 (CA5 1959) where that injured
worker’s drill vessel work platform was sunk to the bottom
of the waterway to stabilize it, yet the worker was entitled
to seaman status because of his labors to accomplish its
mission. Chandris noted that:
The second major body of seaman status law
developed in the Court of Appeals for the
Fifth Circuit, which has a substantial Jones
Act caseload, in the wake of Offshore Co. v.
Robison, 266 F.2d 769 (CA5 1959). At the
time of his injury, Robison was an oil worker
permanently assigned to a drilling rig mounted
on a barge in the Gulf of Mexico. In sustaining
the jury’s award of damages to Robison under
the Jones Act, the court abandoned the aid in
navigation requirement of the traditional test
the boat (painting its exterior) was not ‘seaman’s work’, but noted
it was done while the boat was tied to the pier and his assignment
to this company was sporadic and infrequent. This is in contract to
Mr. Doty who was in the middle of the Hudson River 90% of his work
day, transporting equipment and materials on a vessel to and from
many other vessels, and then working on maintaining those other
vessels. Id. at 557-60.

10
and held as follows:“[T]here is an evidentiary
basis for a Jones Act case to go to the jury: (1)
if there is evidence that the injured workman
was assigned permanently to a vessel ... or
performed a substantial part of his work on
the vessel; and (2) if the capacity in which he
was employed or the duties which he performed
contributed to the function of the vessel or to
the accomplishment of its mission, or to the
operation or welfare of the vessel in terms of
its maintenance during its movement or during
anchorage for its future trips.” Id., at 779
(footnote omitted).
Soon after Robison, the Fifth Circuit modified
the test to allow seaman status for those
workers who had the requisite connection with
an “identifiable fleet” of vessels, a finite group
of vessels under common ownership or control.
(Citations omitted)
Chandris, Inc. 515 US at 365-66.
This last quoted comment is significant here as it
relates to the connection of the maritime worker not
having to be connected to an individual vessel, as opposed
to an identifiable fleet, so long as there is a showing of
common ownership and/or control, which it is indisputable
that Tappan Zee had both.
7. As predicted, Respondent places mis-reliance on the
recent Fifth Circuit’s recent decision in Sanchez v. Smart
Fabricators of Texas, L.L.C., 997 F.3d 564 (5th Cir. 2021)
(en banc). In Sanchez it was clear that the worker was

11
primarily land-based, the vessel was all the time secured
to the pier at his employer’s facility, he worked much of the
time on shore. This is in contrast to Mr. Doty, a maritime
worker who spent 90% of his time on the water from
asserting his rights under the Jones Act. Mr. Doty was
almost always out at sea exposed to true marine perils
aiding in the function and mission of the vessels to which
he was attached, and further was involved in transporting
to the fleet of vessels upon which he worked, the materials
and equipment needed to perform his job in aid to his
maritime duties. See, Gizoni, supra.
8. Nor does Respondent address the inconsistency in
approach by the Second Circuit where it denied the widow
of a maintenance engineer who worked for a short time
on a construction vessel to be covered by LHWCA, and
required any assertion of a claim for benefits to be made
under the Jones Act without the claimant being entitled to
a jury trial on the issue. Uzdavines v. Weeks Marine, Inc.,
418 F.3d 138 (2d Cir. 2005) This irreconcilable approach
from two different panels is internally inconsistent,
conflicts with other Circuit decisions and is contrary to
Supreme Court principles, many of which are discussed
above.

12
CONCLUSION
For the reasons stated herein and in Petitioner’s
opening briefing, the Court should grant the petition for
certiorari to the Second Circuit, and correct an injustice
whereby the Second Circuit denied him the right to a jury
determination of his seaman status.
Dated: New York, New York
July 9, 2021
			

Respectfully Submitted,
Paul T. Hofmann
Counsel of Record
Hofmann & Schweitzer
212 West 35st Street, 12th Floor
New York, N.Y. 10001
(212) 465-8840
paulhofmann@hofmannlawfirm.com
Counsel for Petitioner

